\

j

''V

!

No,

r

In The
Supreme Court of the United States

Annette Shands
Petitioner
V.
Lakeland Central School District, Dr. Tammy Cosgrov e,
Assistant Superintendent of Human Resources

FILED
SEP 3 0 2019

MaSyiHsigui'

Respondents

On Petition For Writ Of Certiorari
To The United States Court of Appeals for the Second Circuit

PETITION FOR WRIT OF CERTIORARI

Annette Shands
Pro Se

RECEIVED

DEC 2 7 2019

27 Winthrop Drive
Cortlandt Manor, New York 10567
(914) 528-3748

f
: /

STXS-3I

aajfl
S!OS 0 E <B8
If

I

*

/

QUESTION PRESENTED FOR REVIEW:

Whether the guarantee of the Fourteenth Amendment applicable against Lakeland
Central School District in Shrub Oak, New York, and its Assistant Superintendent
of Human Resources with patterns and practice of age, race and gender employment
discrimination requires a finding in favor of the Petitioner - where the panel of judges
mistakenly concluded that there was a lack of evidence to show that the School
District and its Assistant Superintendent of Human Resources “intentionally created
obstacles to prevent her [the Petitioner] from filing a successful application,” where it
appears that the District has a policy of regulating the older African American
woman such as the Petitioner to low-paying substitute positions, where the
articulated strategy was to deny the Petitioner relief, where the Lakeland Central
School District denied the Petitioner’s superior qualifications and hired a less
qualified and less experienced person, and where prohibitive pattered responses
stayed in effect over a ten year period or longer and where information and belief
indicate that Copper Beech Middle School has been without African American teachers
and/or administrators with the possible exception of substitutes since it opened its doors in
1966?

x

T

i'

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

n

\
\

TABLE OF CONTENTS

Page
Question Presented for Review

1

n

List of Parties
Table of Contents

in

Table of Authorities

IX

Petition

1

Opinions Below

1

Jurisdiction

1

Constitutional Provision Involved

i, x, 1,3, 7,11

Statement of Case

2

Reasons for Granting the Writ

3
12

Conclusion
Index to Appendices

Appendix A
United States Court of Appeals for the Second Circuit
18-2172
Annette Shands versus Lakeland Central School District, Dr. Tammy Cosgrove, Assistant
Superintendent of Human Resources
Return and Denial of request for rehearing en banc
July 30, 2019
in

1

Appendix B
United States Court of Appeals for the Second Circuit
18-2172
Annette Shands versus Lakeland Central School District, Dr. Tammy Cosgrove, Assistant
Superintendent of Human Resources
Mandated issued July 29, 2019

Appendix C
United States Court of Appeals for the Second Circuit
18-2172
Annette Shands versus Lakeland Central School District, Dr. Tammy Cosgrove, Assistant
Superintendent of Human Resources
Order dated July 22, 2019

Appendix D
United States Court of Appeals for the Second Circuit
18-2172
Annette Shands versus Lakeland Central School District, Dr. Tammy Cosgrove, Assistant
Superintendent of Human Resources
Summary Order dated July 2, 2019

IV

\

Appendix E
United States District Court, Southern District of New York
15-cv-4260 (KMK)
Annette Shands versus Lakeland Central School District, Dr. Tammy Cosgrove, Assistant
Superintendent of Human Resources
Order and Opinion dated July 5, 2018

Appendix F
United States District Court, Southern District of New York
15-cv-4260 (KMK)
Annette Shands versus Lakeland Central School District et al.
Opinion and Order dated March 30, 2018

Appendix G
United States Equal Employment Opportunity Commission
Charge 520-2014-02948
Annette Shands versus Lakeland Central School District
“Dismissal and Notice of Rights” Letter dated
February 26, 2015

v

7
„j

Appendix H
United States Equal Employment Opportunity Commission
Charge 520-2014-02948
Statement regarding Lakeland Central School District and Charge of Discrimination
Filed on July 22, 2014

Appendix I
Lakeland Central School District
“Response” to the Charge
Annette Shands versus Lakeland Central School District
December 11, 2014

Appendix J
Lakeland Central School District
LAKV00651980056
Letter to Annette Shands in response to her application for employment
July 2, 2014

Appendix K
Putnam/Westchester Board of Cooperative Education Services’ Online Application System
LAKV00651
Letter to Annette Shands confirming a timely application
May 20, 2014
vi

\

Appendix L
Internet
E-mail from Shands to Cosgrove
E-mail with letter of May 16, 2014, to Cosgrove with attachments of cover letter of May 20,
2014, and resume from Shands
May 20, 2014
Appendix M
University of the State of New York
Control Number 608054951 and Certificate Number 5636
Permanent Certification as School District Administrator and Permanent Certification as
English Teacher (7-12)
Effective Dates February 1, 1995 and February 1,1969

Appendix N
New York University
Doctor of Philosophy Degree
February, 1979
Columbia University
Master of Arts Degree
December 17,1969
Drew University
Master of Divinity Degree
May 20, 2000
Vll

■?
S'

Appendix O

s'

United States District Court, Southern District of New York
15-cv-4260 (KMK)
Docket Entry 64
August 2, 2017

vm

TABLE OF AUTHORITIES

V

CASES
Page
Back v. Hastings-on-Hudson Union Free School District,
20005 U,S, App. LEXIS, 28973 (2d Cir. Dec. 28,
ix, 6, 7,10,

2005)

Hastings v. Ariz. Dep’t. ofEcon. Sec., 2013 Ariz. App.
6

Unpub. LEXIS 199

Me Garry v. Pielech, 2010 R.I. Supp. LEXIS 84

6

STATUTES
28 U.S.C.§ 1253

1

29 U.S.C. § 621

1

42 U.S.C. § 1983

1

New York State Executive Law § 296

1

New York State Human Rights Law (“NYSHRL”)

1

RULES
Local Rule 35.1

1

Local Rule 56.1

1,3,4, 6, 7,9

ix

1

CONSTITUTIONAL PROVISION

»-■

Section 1 of the Fourteenth
i, x, 1, 2, 3, 9,11,12

Amendment

All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they
reside. No state shall make of enforce any law which
>•>

shall abridge the privileges or immunities of citizens
of the United States, nor shall any state deprive any
person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.

x

■r

PETITION
Opinions Below
The Petitioner lost to Summary Judgement rendered by District Judge Kenneth M.
Karas in White Plains on July 5, 2018. See Appendix E.

The Petitioner appealed. Oral argument was held before the panel on June 27,
2019. The Petitioner’s appeal in the United States Court of Appeals for the Second Circuit
at Foley Square in Manhattan was denied by Circuit Judges Dennis Jacobs, Debra Ann
Livingston and Susan I. Carney on July 2, 2019. See Appendix D. The Petitioner moved
for rehearing en banc on July 26, 2019. Her motion was rejected for filing and returned to
her on July 30, 2019, with the explanation “Appeal is closed, and this Court no longer has
jurisdiction.” See Appendix A.

Jurisdiction
The United States Court of Appeals for the Second Circuit of New York’s Southern
District issued its judgment on July 2, 2019. Subsequent to that judgment, this petition
comes before the Supreme Court of the United States in accordance with 28 U.S.C. § 1253.

Constitutional Provision Involved

Section 1 of the Fourteenth Amendment provides:
All persons born or naturalized in the United States
and subject to the jurisdiction thereof, are citizens of
1

V,

the United States and of the state wherein they
reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any
person of life, liberty, or property, without due process
of law nor deny to any person within its jurisdiction
the equal protection of the laws.

Statement of the Case
In 2004 and in 2014, the Petitioner, in seeking employment as an administrator,
presented at the Lakeland Central School District Office and heard:
“You are not on our list.”
“We only hire from our list.”
“We cannot hire you.”
She remembered that in 1957, during the Eisenhower Administration, African American
applicants seeking employment at Borg-Warner Corporation in Muncie, Indiana, also
heard:
‘You are not on our list.”
“We only hire from our list.”
“We cannot hire you.”
At that time, letters were written to President Eisenhower who had the Equal Job
Opportunity Committee probe into the matter resulting in the company’s practices
being ruled “discriminatory” and “unconstitutional,” and Borg-Warner being given the
ultimatum to either hire the qualified African Americans or lose its government contract.
This Petitioner filed a complaint (Charge 520-2014-02948) with the Equal
2

c
Employment Opportunity Commission (EEOC) on July 22,2014. See Appendix H. After
its investigation, EEOC sent this petitioner a “Dismissal and Notice of Rights” letter dated
February 26, 2015. See Appendix G.
On May 26, 2015, the Petitioner filed a complaint against Lakeland Central School
District et al. claiming discrimination based on age, race and gender pursuant to the Age
Discrimination in Employment Act (“ADEA”) 29 U.S.C.§ 621, the New York State Human
Rights Law (“NYSHRL”), New York Executive Law § 296 and the Fourteenth Amendment.
The School District claimed that Shands was not hired because she lacked experience
with middle school students and knowledge of common core learning standards and that a
better-qualified person was hired.
Reasons for Granting the Writ
The panel erred in concluding that the sum total of Shands’s relevant work
experience consisted of being “a pastor and schoolteacher.” Shands’s work experience has
also been identical to the work experience being sought, focusing on middle school students
and New York State’s common core learning standards as an Administrator, Assistant
Principal and/or Administrative Intern at the Graham School in Hastings-on -Hudson
and as a multi-level educator over a ten-year period at both Mercy College and Lehman
College where she helped recent high school graduates develop skills for success in college
level courses, and also worked in an administrative capacity with middle school students
simultaneously enrolled in public schools and in the Science Technology Entry Program
(STEP) at Mercy College and with middle school students simultaneously enrolled in
public school and in the summer courses created, developed and implemented by the
Search for Education, Elevation and Knowledge (SEEK) Department at Lehman College.
3

For the plus ten years that Shands was involved with common core learning standards
and middle school students her duties and responsibilities were inclusive of all those
undertaken by a middle school principal or assistant principal or as an administrator in
education.
The Summary Judgment mistakenly builds on the claim that the changes the State
made to common core learning standards in 2012, made Shands’s involvement which was
prior to 2012, not “up to speed” and of little or no benefit to the students in the School
District. However, changes which appeared in 2012, were approved in 1996 and scheduled
to be made in 2012, (www.engageNY.org) and based on studies conducted prior to 1996.
Proposals had to be written and evaluated. Grants were issued. A large cadre of persons,
one of whom was Shands, employed by colleges and universities throughout the State held
discussions to assess and improve learning standards to better address the strengths and
weaknesses of students. They ran pilot programs, designed a variety of courses, offered
solutions to problems, provided differing learning situations, wrote grants, monitored
student progress and responses to impact positive change, having a direct impact on
the changes of 2012. This same cadre of persons initiated the dialogue that led to the
development of common core learning standards in public schools and colleges in response
to open enrollment, for the driving force behind common core learning standards is to help
public school students and the non-traditional student succeed in college.
The Summary Judgement fails to take into consideration that Shands who was not
hired by the School District has more involvement with common core learning standards
and more administrative experience with middle school students enrolled in public schools
/

than Francesco Ruolo, the person who was hired with three years of experience as a

middle school administrator at the time of the vacancy, with all of his other experience
at the elementary level. As an Educational Consultant in African American history
for the John C. Hart Memorial Library, Shands proved herself successful with Copper
Beech Middle School students who were so enthusiastic about the African American
History Month Program that she administered that they requested a two week extension
to which Lakeland’s Superintendent of Schools gave written approval. Plus Shands is
permanently certified as a School District Administrator in the State of New York and as a
middle school English teacher, See Appendix M. However, Ruolo is certified in elementary
education. Shands earned degrees from the nation’s two most highly prized institutions
for educators and has sixty (60) credits beyond those required for the position at Copper
Beech Middle School. In her deposition of November 28, 2017, Congrove admits that
Shands is better qualified. See 127:9-13 of Cosgrove’s Deposition of 11-28-17.
The panel also mistakenly concluded that there was “no evidence that defendants
[or Respondents] intentionally . .. prevent [ed] her [Shands] from filing a successful
application...." Such evidence does exist. It can be found in the “Response” and
“Verification” dated December 11, 2014, which the School District and Assistant
Superintendent of Human Resources sent to EEOC’s Deputy Director Judy Keenan. See
Appendix I. The “Response” makes no mention of Shands’s cover letter of May 20, 2014,
which Shands submitted with her application, nor of her letter of May 16, 2014, which
Shands sent to Cosgrove in an email dated May 20, 2014. Instead the “Response” makes
mention of a letter having the date November 19, 2008. See “Response,” page 3. The
November letter makes reference to substituting and is without any phraseology that the
Petitioner would use and without any reference to the position being sought. Such action
5

1

~

made it no longer possible for the Petitioner to be considered among those interested in
vacancy LAKV0065198-0056, for such an action discredited the Petitioner’s application. It
actually made her application “null” and “void.”
As the “Response” shifts the petitioner’s search for an administrative position
to that of a substitute with the presentation of the letter of November 19, 2008, an
employment hierarchy comes into existence and with it a historical context that
reserves the lower part of that hierarchy or its lower echelons for African Americans
and particularly for the older, African American female as one who cares for children.
From this comes a policy steeped in stereotyping as the School District veers away from
its prohibitive patterned responses whenever the Petitioner has an inquiry regarding
substituting. In so doing, the School District is actually trying to put the Petitioner in a
particular job - that of a substitute without any benefits. Such practices within the School
District treat the African American female that presents as if she were a stereotype of
one who is suited to being a babysitter/substitute. See McGarry v. Pielech, 2010 R.I. Supp.
LEXIS 84. See also Hastings v. Ariz. Dep’t ofEcon. Sec., 2013 Ariz. App. unpub. LEXIS
199. According to Back versus Hastings-on-Hudson Union Free School District, 365 F.
3d 107, *107; 2004 U.S. App. LEXIS 6684, **1, “Stereotyping of women as caregivers can
by itself and without more be evidence of an impermissible, sex-based motive.” Plus,
given the historical context of the older African American woman as caretaker, herein
the stereotyping has both gender and racial carry-overs. The stereotype of the older
applicant that emerges from Cosgrove’s deposition of 11-28-17 is of one who is a sedentary
employee who will “sit behind a desk and push papers” (52:24-25), one who is considered
outdated and unable to handle recently revised guidelines and simply not “up to speed”
6

(145:15) with insufficient stamina for the position and not “a lot of energy,” (52:19-21).
Such stereotyping with respect to age, race and gender on the part of the School District
and its decisionmakers is not in keeping with employment equality. For “stereotyping is
discriminatory and gives evidence that can enter into an adverse decision,” in violation
of the Equal Protection clause of the Fourteenth Amendment. See Back v. Hastings-onHudson Union Free Sch. Dist. 365 F, 3d 107, *107; 2004 U.S. App. LEXIS 6684, **1. “
Moreover, the Summary Judgment makes false statements. It falsifies the
record regarding the Petitioner’s testimony and the interaction between Davis
and Shands. The Petitioner did not contradict herself when speaking of Davis’
having told her that perhaps she (the Petitioner) had provisional rather than permanent
certification. The Petitioner’s remarks about not remembering everything that Davis said
to her or that she said to Davis was in response to a different question. It came when the
Petitioner was being pressed to say “what more” or “what else” could she recall about
her conversation with Davis. Another false statement on the record is that Davis gave
Shands the phone number to contact the State Department of Education on
May 16, 2014. That did not happen. Davis and Shands did not converse about The
New York State Department of Education, only about the certification that the State
Department issues. What Davis gave Shands was a photocopy of Vacancy LAKV00651980056 which Shands requested. Secondly, the Summary Judgment mentions
applications that the Petitioner did not make. The Petitioner only made one online
application for which she received confirmation upon doing so on May 20, 2014. See
Appendix K. The e-mail that the Petitioner sent to Dr. Cosgrove was not an application,
but rather a letter requesting support of her online application. She has no memory of
7

*

amending her online application on May 28, 2014, nor at any other time. Nor can she
conceive of any reasons for wanting to make changes. Nor did she receive a print out
from the online application system (OLAS) for having done so. Nor did she request that
the OLAS Supervisor make any changes or adjustments to her application. Thirdly the
Summary Judgment denies the Petitioner’s superior qualifications. The Petitioner
holds a Doctor of Philosophy degree from New York University’s School of Education. See
Appendix N. Plus, she has two master degrees: One is from Teachers College, Columbia
University and the other is from Drew University. Fourthly the Summary Judgment
seeks to cover up the fact that Lakeland Central School District disregarded the
Petitioner’s LAKV0065198-0056 application. The Summary Judgement maintains that
Shands, the Petitioner, was recognized as an applicant and considered along with over
300 applicants for the LAKV0065198-0056 position, but not chosen. However, there is
evidence to the contrary: on May 16, 2014, the Petitioner was told that she would not be
hired. See Appendix H; the July 2, 2014, letter from the School District addressed to the
Petitioner evidences a complete lack of consideration of her candidacy. See Appendix J\
the District’s “Response” to EEOC does not acknowledge the Petitioner’s experience with
middle school students, nor does it acknowledge the Petitioner’s knowledge of common
core learning standards. See Appendix I. The District’s “Response” to EEOC makes
no mention of the Petitioner’s cover letter of May 20, 2014, but substitutes a letter of
November 19, 2008, which makes no reference to Vacancy LAKV0065198-0056, making
the Petitioner’s application a mute issue. Cosgrove gave high praise to the employee who
told the Petitioner that she (the Petitioner) would not be hired and there was no mention
of a reprimand nor of further, more complete training in connection with not finding the
8

Petitioner’s certification in the District’s database, See 13:15-23 of Cosgrove’s deposition
of November 28, 2017; Cosgrove’s deposition also refers to this Petitioner’s resume as
“unsolicited” (68:21) and “unwanted paper” (67:20) even though Cosgrove acknowledges
that she does accept paper applications, See pages 69-72 of Cosgrove’s deposition of
November 28, 2017. In her affidavit of February 14, 2018, Cosgrove’s assertion that she
did not know the Petitioner was over the age of forty, as stated in Item 8, indicates a lack
of familiarity with and/or a complete dismissal of Shands’s resume which presents work
experience spanning forty-eight years. In that same affidavit, Cosgrove also asserts that
she realized that the Petitioner was over the age of forty upon learning of the “Charge
of Discrimination” against the School District. Here again is further indication that
Cosgrove only reviewed the Petitioner’s resume after hearing from EEOC. The School
District’s failure to respond to items nine (9) and ten (10) in the Petitioner’s Freedom of
Information Request sent in May of 2017. is further proof that the Petitioner was not
considered as an applicant.
See Items 9 and 10:
9. Any and all records, documents, papers, notes,
emails or other records regarding the application of
Annette Shands, including any evaluation, record
searches, records or notes of conversation regarding
her qualifications for the position of assistant
principal for the Copper Beech Middle School
regarding Vacancy Announcement
LAKV00651980056
10. Names of any individuals consulted by the School
District regarding the qualifications of Annette
Shands
9

Plus, with the possible exception of an occasional substitute, it is highly likely that the
records will show that there have been no African American teachers or administrators at
Copper Beech Middle School since its doors opened in 1966, even though approximately
six percent or more of the student population is African American according to County
records. For all of these reasons it becomes clear that Local Rule 56.1 was actually used as
an evasion technique to effect discrimination against the Petitioner and deny her relief as
set forth in her “Revised Privilege Log.” See Appendix O.
“In the context of the McDonnell Douglas burden-shifting analysis, unless the
defendants’ [or Respondents’] proffered nondiscriminatory reason is dispositive and
forecloses any issue of material fact, summary judgment is inappropriate.” See Back
versus Hastings-on-Hudson Union Free School District, 2005 U.S. App. LEXIS 28973 (2d.
Cir. Dec. 28, 2005).

10

This case presents the Court with the following challenges:
1 To rectify the erroneous decision of the United
States Court of Appeals for the Second Circuit
in the Southern District of New York,
2 To re-evaluate the use of Summary Judgment in
connection with matters of employment
discrimination,
3 To approach and affirm equal justice for all those
who, like the Petitioner, sometimes function within
the courts without legal representation and
4 To intervene on behalf of American citizens who
cannot protect their civil rights or contend against
the many forms and instances of discrimination
and injustice without the Court
5 To stand in defense and as a bulwark when any
entity, especially a school district seeks to
perpetuate patterns, practice and evasion
techniques of discrimination and injustice
6 To challenge those who serve the public to uphold
truth, honesty, justice and impartiality
7 To guarantee Fourteenth Amendment protection
against the deprivation of the Petitioners right to
relief and to grant such relief as may be
11

appropriate, including injunctive orders, damages
and costs as follows: that the Lakeland Central
School District and its Assistant Superintendent of
Human Resources be required to pay damages for
the wages and benefits the Petitioner would
have earned in a fair evaluation and her lost
opportunity from 2014 to 2026 due to the patterns
and practice of employment discrimination
established by the repeated use of an evasion
technique to adversely impact her Fourteenth
Amendment constitutional rights in both 2004 and
2014, and for such other and further relief as the
Court deems just and equitable.

FOR ALL THE AFORE MENTIONED REASONS CERTIORARI SHOULD BE
GRANTED

12

CONCLUSION
Therefore, I petition the Court to grant a Writ of Certiorari in this matter
for all of the foregoing reasons.

Dated: December 7, 2019

Respectfully Submitted,

4^-

13

